Sheppard, Mullin, Richter & Hampton LLP
1901 Avenue of the Stars, Suite 1600
Los Angeles, California 90067-6055
310.228.3700 main
310.228.3701 fax
www.sheppardmullin.com

May 14, 2021

310.228.3717 direct
jstigi@sheppardmullin.com
File Number: 27HN-224621

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

BofI Holding, Inc. v. Houston Mun. Employees Pension Sys., No. 20-1364

Dear Mr. Harris:
We represent petitioners in the above-captioned case. I write to oppose
respondent’s request for a 28-day extension of the time to respond to the petition for a writ of certiorari in this case, through and including June 25, 2021.
The requested extension would have the effect of delaying consideration
by the Court of the petition in this case past the final scheduled conference of
the current Term (June 24, 2021). As a result, the soonest the Court could
consider the petition is in fall 2021. Because the district court declined to
entertain a stay of the proceedings below unless and until this Court were to
grant the petition, the case continues to proceed before the district court. The
deadline for fact discovery in this case is September 30, 2021. See In re BofI
Holding, Inc. Sec. Litig., Case 3:15-cv-2324-GPC-KSC (S.D. Cal.), ECF 177, at 2.
Thus, if respondent’s extension were granted, fact discovery will have been
completed before the Court will have had the opportunity to consider the
threshold pleading issues raised by our petition.
In light of the above circumstances, as well as the lack of detail offered to
support respondent’s counsel being “heavily engaged with the press of previously assigned matters,” we respectfully request that the Court deny respondent’s request for an extension that would delay the Court’s consideration of
the petition past the final conference of the current Term.
Respectfully submitted,

John P. Stigi III
for SHEPPARD, MULLIN, RICHTER & HAMPTON LLP
SMRH:4814-3938-0713.1

IN THE SUPREME COURT OF THE UNITED STATES
NO. 20-1364
BofI HOLDING, INC., et al.
Petitioners
v.
HOUSTON MUNICIPAL EMPLOYEES
PENSION SYSTEM
Respondent.
CERTIFICATE OF SERVICE
I, John P. Stigi III, an attorney for Petitioners BofI HOLDING, INC., et al.,
hereby certify that on this 14th day of May, 2021, a copy of the
foregoing PETITIONER’S OPPOSITION TO RESPONDENT’S REQUEST
FOR EXTENSION OF TIME was served by email delivery, upon the following
counsel:
Richard M. Heimann
Katherine Lubin Benson
Michael K. Sheen
LIEFF CABRASER HEIMANN &
BERNSTEIN, LLP
275 Battery Street, 29th Floor
San Francisco, CA 94111-3339

Attorneys for Respondent

Daniel P. Chiplock
Michael J. Miarmi
LIEFF CABRASER HEIMANN &
BERNSTEIN, LLP
250 Hudson Street, 8th Floor
New York, NY 10013-1413

Attorneys for Respondent

Tel: (415) 956-1000
Email: rheimann@lchb.com,
kbenson@lchb.com,
msheen@lchb.com

Tel: (212) 355-9500
Email: dchiplock@lchb.com,
mmiarmi@lchb.com

1

I further certify that all parties required to be served have been served.

John P. Stigi III
SHEPPARD MULLIN RICHTER &
HAMPTON LLP
1901 Avenue of the Stars, Suite 1600
Los Angeles, CA 90067-6055
(310) 228-3700
jstigi@sheppardmullin.com
Counsel for Petitioners BofI Holding,
INC.. et al.

2

